                              Closeout for M98070020

    On July 28, 1998, we received a telephone call from the complainant1who
alleged that her Chairperson (the subject)2 had committed plagiarism. The
complainant said her proposals,3 which she had submitted to NSF, had been seen by
the subject in her position a s Chairperson of the complainant's department. The
complainant's proposals were for the purchase of equipment and outlined research
that she would carry out using that equipment. The complainant said the subject
had told her she was preparing a proposal for NSF that would utilize the same
equipment the complainant had previously requested and asked the complainant to
participate in the project. The complainant said she expected to be a co-PI on the
subject's NSF proposal,4 but she discovered she was not. She alleged the subject
committed plagiarism because the text she provided for the subject's proposal was
not attributed to her. The complainant also alleged the subject misrepresented the
complainant's participation in the project because the subject failed to inform NSF
that the complainant's contract a t her university would not be renewed, but
nonetheless, included the complainant a s a participant in the project.
    The subject's grant was intended to help improve the department's facilities for
its students. The subject told us she asked the participating faculty members to
provide write-ups describing their intended contributions to this project. She said
the complainant knew the subject's grant was a departmental one, and that the
complainant gave the subject a diskette with the material from her earlier proposal
to use as her contribution. For the most part, the subject included each faculty
member's contribution into the grant unedited. NSF and its reviewers recognize
that a grant of this type represents a department-wide effort and includes
contributions from people other than the PI, i.e., the participating faculty members.
Although each person's contribution is not necessarily quoted or offset, NSF and its
reviewers understand that the PI is not the sole researcher on a project of this type.
Under these circumstances, the presence of the complainant's text in the subject's
grant does not constitute plagiarism.
    Regarding the complainant's status, the subject told us the complainant would
remain a t the university for 1year after the decision not to renew her contract was
made. In that year, she anticipated the complainant would still make contributions
to the project. NSF's Program Managers told us that even if the complainant
weren't involved with the project, the department had sufficient expertise to carry
out all of the proposed research.                                      +



   1 (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
     (footnote redacted).
   5 (footnote redacted).




                                      Page 1of 2
                              Closeout for M98070020



   Based on the evidence we have, this inquiry is closed and no further action will
be taken on this case.

cc: Integrity, IG




                                     Page 2 of 2
